<html>
<title> - FIDEL CASTRO: KIDNAPER (PART I)</title>
<body><pre>[Senate Hearing 106-870]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 106-870

                     FIDEL CASTRO: KIDNAPER (PART I)

=======================================================================

                             PUBLIC MEETING

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 20, 2000

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
68-773                     WASHINGTON : 2001



                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
CHUCK HAGEL, Nebraska                PAUL S. SARBANES, Maryland
GORDON H. SMITH, Oregon              CHRISTOPHER J. DODD, Connecticut
ROD GRAMS, Minnesota                 JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                RUSSELL D. FEINGOLD, Wisconsin
CRAIG THOMAS, Wyoming                PAUL D. WELLSTONE, Minnesota
JOHN ASHCROFT, Missouri              BARBARA BOXER, California
BILL FRIST, Tennessee                ROBERT G. TORRICELLI, New Jersey
LINCOLN D. CHAFEE, Rhode Island
                   Stephen E. Biegun, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Rodriguez, Dr. Leonel Cordova; accompanied by: Dr. Noris Pena....     2

                                 (iii)

  

 
                    FIDEL CASTRO: KIDNAPER (PART I)

                              ----------                              


                     WEDNESDAY, SEPTEMBER 20, 2000

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.

    The committee met, pursuant to notice, at 2:30 p.m. in room 
SD-419, Dirksen Senator Office Building, Hon. Jesse Helms 
(chairman of the committee) presiding.
    Present: Senator Helms.
    Also present: Congresswoman Ileana Ros-Lehtinen.
    The Chairman. This is a public meeting, it is not a formal 
hearing of the committee. There are games being played in the 
U.S. Senate by the minority party. They have objected to all 
committee meetings, so this is not a formal committee meeting, 
but it is an occasion for us to get together and to make a 
public record of a very important situation.
    The Foreign Relations Committee, with this meeting, is 
beginning a series to remind anybody with a short memory just 
who and what Fidel Castro really is. Now, well-financed U.S. 
business groups declare that Castro is a potential business 
partner. Well, they had better wake up and smell the coffee, 
because the facts are that he is a deadbeat who has stolen 
property on a massive scale and has swindled just about 
everybody dumb enough to try to trade with him.
    The Washington lobbyists have convinced American farmers 
that the bankrupt Castro Government can somehow solve the 
financial problems of the farmers, but even if Castro imported 
all of the U.S. farm products he could afford, the income to 
American farmers would amount to considerably less than what 
Miami and Dade Counties spend on garbage collection in just a 
few months.
    And Mr. Castro brags about Cuba's health system, but Cubans 
are denied access to medicines and medical care, that are 
reserved for foreigners who are paying the dollars for it.
    Fidel Castro is portrayed as a misunderstood nationalist 
who wants nothing more than mutually respectful relations with 
the United States. Bosh and nausea. Cuban spies are now 
standing trial in Florida for the murder of American citizens. 
That is the kind of respectful relations Fidel Castro wants 
with this country.
    During the tragic events surrounding the Elian Gonzalez 
case, Fidel Castro was portrayed by the media as a sort of 
grandfather figure, but no other man alive has done more to 
shatter families. Children whose parents have fled the island 
of Cuba have been waiting years for Castro's permission to join 
their parents in freedom. Now, that is the real Fidel Castro, 
and this afternoon we are going to hear testimony about Fidel 
Castro the kidnaper.
    Now, our two witnesses, Leonel----
    Dr. Cordova. Leonel Cordova.
    The Chairman. Leonel Cordova and Noris Pena are Cuban 
doctors who defected this past May from a Cuban medical mission 
in Zimbabwe. While awaiting asylum they were kidnaped by 
Zimbabwean police and by Cuban ``diplomats,'' who were under 
orders from Castro to force those two doctors to come back to 
Havana. But that kidnaping was thwarted because they passed a 
note to an Air France crew who refused to let them aboard, and 
by the time the two doctors were forced back to Zimbabwe their 
kidnaping was discovered and the two governments were shamed 
into releasing them, but only after locking them in jail for a 
month.
    Now, since their defection, Dr. Cordova's wife and two 
children have been evicted from their home in Cuba by this 
nice, grandfatherly Fidel Castro. Dr. Pena's parents have U.S. 
visas but have been denied permission to leave Cuba.
    Now, the story is about Fidel Castro the kidnaper. 
Recently, Castro has painted a different image of himself by 
offering to send doctors to poor areas of the United States, 
particularly Mississippi. That was not overlooked by 
Mississippi Senators, who are not going to be standing at the 
border line welcoming them to come in. In fact, our witnesses 
will testify that Castro uses these missions as little more 
than cynical propaganda tools. Indeed, our witnesses were not 
allowed to touch a single patient in Zimbabwe during the 2 
months that they were posted in that poor country.
    So few people realize that Castro quietly charges these 
desperately poor countries for so-called volunteer doctors whom 
he sends around the country, or the world. Zimbabwe, for 
example, is reported to have paid Castro $1 million a month for 
a ``medical mission,'' that was not even allowed to treat 
patients.
    So you see, everything Castro does is a cynical show to 
line his pockets or to make him appear benevolent, instead of 
the cruel dictator that he is. These medical missions Castro 
sends around do both.
    With that, I wish the other Senators could be here, but 
they had other things to do. Anyway, I am going to ask our 
witnesses to make brief opening statements. I welcome you to 
the committee, and while I am at it, welcome to freedom.
    You may proceed.

STATEMENT OF DR. LEONEL CORDOVA RODRIGUEZ; ACCOMPANIED BY: DR. 
                           NORIS PENA

    Dr. Cordova. Mr. Chairman, Senators, good afternoon. First 
of all, we would like to apologize for our English, but we will 
try our best to express to you what happened to us in Zimbabwe 
and how the Cuban Government was involved in this issue.
    We were there as part of a medical mission composed of 107 
health workers that arrived on March 20 of this year. On April 
23, we decided to defect and, after going to the main 
opposition newspaper in Zimbabwe, we made a declaration against 
the Cuban Government's policy in regard to our mission and our 
general disagreement with Castro's regime.
    After going to the Canadian and American Embassies asking 
for political asylum, and having our request ignored, we 
entered into a process with the U.N. Representatives to try and 
seek a resolution to our problems. As time went by, the Cuban 
Government declared that we had not done anything against the 
law, and that we would not be prosecuted.
    However, Cuban forces, accompanied by Zimbabwean officials, 
intercepted us and made many offers to try and convince us that 
we had no chance of escaping, and that our families in Cuba 
would suffer a lot because of what we were doing.
    On June 2, we were abducted from a friend's house by four 
Zimbabwean officials, who pointed automatic weapons at us and 
led us to the immigration department. They prevented us from 
any kind of contact with the U.N. officials. Once in the 
building, they tried to forced us to sign a false permission to 
stay in the country, but we refused. A second document 
declaring us prohibited persons in Zimbabwe and declaring our 
sentence to be deported to Cuba was offered later.
    They even tried to fingerprint us forcibly, but we also 
refused this.
    By coincidence, having not followed their instruction to 
remain in the room, I saw the Consul of the Cuban Embassy 
outside in the hallway. Almost immediately I was almost 
handcuffed, which proved to me that Zimbabwean officials were 
acting on the instruction of the Cuban Government.
    Later, they conducted us straight to the airport, where we 
witnessed the presence of the Ambassador, Sarracino, the 
Consul, Harare--I do not know the second name--and the chief of 
the medical mission, Dr. Bustillo. We were put into a South 
African plane, escorted by two Zimbabwean officers.
    Once in South Africa, the Cuban Embassy representatives 
were waiting for us to reaffirm their custody of us during 
transit. Responding to Cuban Embassy officials, the Zimbabweans 
told them that they did not have even assent to pay any of the 
transportation costs, because the Cuban Government had the 
responsibility of providing everything we needed, including the 
travel, the stay in Havana, and the ticket to come back to 
Harare.
    We also saw that we were traveling with false passports 
doctored by the Cuban Embassy in Zimbabwe. At the time of 
boarding the Air France plane, the Cuban officials were pushing 
us into the plane, while the air crew was trying to do the 
contrary. Then we passed a note to the flight attendant, which 
he passed on to the U.N. in Geneva and the Miami Herald. 
Because of this, our case became public, because of that note.
    We spent 2 days in South Africa restrained by the Cubans 
and Zimbabweans until we were sent back to Harare. They did not 
inform the U.N. of our whereabouts, and Zimbabwean officials 
came to see us in prison and transmitted a message from the 
Cuban Ambassador giving us the chance of returning to Cuba and 
facing the consequences of our behavior. They made us sign the 
document declaring us prohibited persons and gave us the 
opportunity to leave the country in 72 hours. However, they did 
not release us to do it.
    We asked for the visit of the ambassador, but he never 
appeared. We were mistreated at all times on any type of 
communications to the U.N. or other embassies to find a quick 
solution to our case. We were obstructed by Cuban and 
Zimbabwean Governments. The director of the UNHCR offices 
informed us about the maneuvers of both governments to ruin our 
asylum case, and they were very concerned about the presence of 
a Cuban plane in a nearby country, sent there to pick us up.
    The Cuban President had decided for us where we could 
travel, violating our right to self-determination. Upset by our 
departure to Sweden, he made a last attempt to ruin the trip. 
He forbade us to travel with our Cuban passports, and forced 
the U.N. to give us a special document, because according to 
the Cuban officials we were not Cubans any more.
    But what influenced us to take the decision of the flight 
and express our decision to the Castro regime, to give you an 
idea how we came to this decision, we would like to talk about 
our field as doctors, and health care in general in Cuba. The 
last few years, the problem of keeping up with the health care 
of the Cuban population has gotten worse. The different 
services, depending on who you are, the conditions of 
preparation for those in our field, the misuse of resources, 
and the level of satisfaction of health workers are elements 
that show us that those responsible for our disgraceful 
situation is solely this totalitarian regime imposed by 
communism in Cuba.
    In the meantime, foreign tourists and Cuban leaders enjoy 
the best medical attention in well-equipped hospitals, without 
feeling the lack of resources and what the human cost is to the 
Cuban population, who in turn are subjected to the worse 
restrictions. While in the dollar shops you can find the 
assistance of many resources, these are not at the reach of the 
average Cuban. Made in Cuba, but property only of the Cuban 
Government.
    Meanwhile, the Cuban medical students who will be 
responsible for the population's health are training now in 
adverse situations without advanced medical texts and with 
obsolete lab equipment and inhuman living conditions, while 
foreigners are studying in the American medical school in 
Havana enjoying, as a free gift, the easier conditions to 
develop and achieve quality education. The vast majority of 
them, millionaires in their countries of origin, as we saw in 
Zimbabwe.
    The association of the Cuban pharmaceutical industry with 
foreign enterprises has allowed its development, and 
consequently the production of drugs that only can be seen by 
Cubans in foreign health fairs, and that are barely 
administered to the needy patients on the island.
    The level of satisfaction of health care workers has 
decreased drastically, due to the lack of ability of the worker 
and his family to live a dignified human existence. Apart from 
the right to live and return to their country, they have been 
prohibited, as well as the freedom of consciousness, 
expression, thought, and association. Everybody that makes 
public his opposition to the Castro regime is harassed, 
persecuted, and sent to prison.
    The previous are just a minimal expression of a wide list 
of events that are caused by Castro's tyranny. We consider that 
only cutting the umbilical cord that sustains his empire--by 
this, we mean suspending any kind of external aid--we can 
suffocate the malignancy that is killing us today and has 
provoked a deep wound in the heart of the Cuban people.
    Thank you very much.
    The Chairman. Well, thank you, sir. Before we proceed, we 
have a good many young people in the back of the room and I 
would like for them to have copies of the doctor's testimony. 
How can we handle that? Would you like to have a copy so you 
can study the writing of it? If we can get 15 or 20 copies, 
maybe some of them can share.
    Now, the questions are going to be translated, I am told, 
so I will talk very slowly.
    Doctor, if the kidnaping had succeeded, and if you had been 
delivered back to Cuba, what do you think would have happened 
to you when you got back to Cuba?
    Dr. Cordova. In the best case, we were in prison for 20 to 
30 years. In the worst, everybody can imagine what could happen 
in these cases. We would be killed.
    The Chairman. I want you to tell us about your two separate 
visits to the Embassy of the United States. Whom did you talk 
with there? Do you remember?
    Dr. Cordova. Yes. In the first case, in the first visit we 
talked to the consular officer, consul, the consul. Her name 
is--Theresa Thompson, could be? Theresa Thompson--Theresa 
Brown, and with another man who was identified as Diego, was 
the name that he gave us.
    In the second chance, we saw the same person.
    The Chairman. The same person. Did he seem interested, 
disinterested, or what?
    Dr. Cordova. In the first case--in the first visit they--I 
mean, they took a lot of notes, and they said that we had to 
get in touch with the U.N. offices, because in the meantime did 
not take the decision--they could not do anything for us.
    In the second opportunity----
    The Chairman. This is the Embassy of the United States that 
told you they could not do anything for you.
    Dr. Cordova. Yes. Yes. They said they could not do anything 
in that moment for us.
    The Chairman. Did you make clear to them that you two had 
been harassed by the Cuban Government?
    Dr. Cordova. Yes. In the second visit, we rushed to the 
American Embassy because previous to this moment we were 
harassed by the rapid response brigades of the Cuban Government 
organized in Zimbabwe, composed by the doctors, the same 
doctors. I can give you even the name. Everybody knows it. Dr. 
Bustillo, the chief of the mission, is the chief of the rapid 
response brigades in Zimbabwe, I mean, to attack any action 
like this, like we did, you know.
    The Chairman. Dr. Pena, I would like to have your answers 
to these questions, too. Now, I am going very slowly so that I 
can be understood, so I will just proceed at this point. This 
is a question to both of you.
    When you visited the U.S. Embassy you were told that you 
would have to check in with the United Nations--is that 
approximately so? That they could not do anything for you at 
the U.S. Embassy, is that so?
    Dr. Pena [through translator]. Yes. They said that they 
could not do anything at that moment for them, that they would 
have to direct their case to the United Nations, and they would 
have to begin the process, that nothing could be done at the 
U.S. Embassy at that time.
    Dr. Cordova. In the second opportunity, we told them that 
we were interfered by the Cuban rapid response brigade, and we 
were afraid for our life, because they could do everything to 
disappear us, as they did later.
    The Chairman. And you made clear, in other words, that you 
felt abandoned, because they would not give you asylum, meaning 
they, the U.S. Embassy?
    Dr. Cordova. Yes. I could not say I was abandoned, because 
I did not know the procedures, but I felt as if I were 
abandoned. I did not know where should I go to solve my problem 
as soon as possible.
    Dr. Pena. They did not realize the seriousness of the case 
until they were almost returned back to Cuba, and from that 
point on there was a realization.
    The Chairman. Now, you said, she said they did not realize 
the seriousness?
    Dr. Pena. No. The American Embassy, I guess, did not--to 
her understanding, did not understand what the seriousness of 
their case was.
    Dr. Cordova. Until the abduction took place.
    The Chairman. Well, I think it was a case of benign neglect 
at best. They just did not want to get involved. Is that not 
really the case?
    Dr. Cordova. I do not know.
    The Chairman. You do not know. Of course you do not.
    Well, I wish you would tell me in detail what is happening 
to your families back in Cuba?
    Dr. Cordova. As soon as we defected they were informed that 
they had to abandon as soon as possible, just in a few days, 
the place that we were living in. That place belongs to the 
government, and apart from it, they were depriving from my 
money that I earned for my stay in Zimbabwe. Later, when I made 
public this kind of maneuvers, Fidel Castro gave to my wife not 
only the money that I had earned, but much more, and the CDR--I 
mean, the communist organizations made everything possible and 
impossible for becoming their life miserable.
    The Chairman. Dr. Pena.
    Dr. Pena. She says there has been a lot of indirect 
effects, as well as direct effects to her family, including a 
lot of negative reports that have come out in the Cuban-
controlled media about their situation.
    Their family and friends have told them not to turn on the 
television or read the reports because of the type of negative 
things that are being portrayed about their case, and at work 
they have received a lot of pressure and harassment, in the 
neighborhood as well. They are afraid to open their door at 
home because they do not know if it is someone coming for 
something good or bad.
    The Chairman. OK. Now, are you trying to arrange to bring 
your families to the United States?
    Dr. Cordova. Yes, of course. In our case specifically I 
want to announce that recently the Government of Fidel Castro 
is instructing the father of my stepson to not allow him to--I 
mean, to not allow him, his son, to come here once the United 
States of America gives to my family the opportunity to come. 
It is very important for us because--I mean, to have our family 
here, because they are really under a great pressure. They are 
going to suffer a lot. Our family--I mean, I have three 
children. Two of them could come fortunately, but one 
unfortunately has to stay there.
    In the school they are going to suffer a lot. You know, the 
instruction in Cuba is pure Communist, and they do not allow 
anybody to--I mean, to say any other different, you know, 
because my sons, my children are son and daughter of a 
betrayer, and it is well enough to be the sufferer because of 
it.
    The Chairman. Dr. Pena.
    Dr. Pena. Her family has the advantage of having just 
recently won the lottery. Unfortunately, both of them are 
doctors. This is an unfortunate situation in Cuba, and besides 
the fact that they have a visa, they are not allowed exit.
    Dr. Cordova. And the harassment, the harassment has been 
extended not only to my wife and to my children, even, I had an 
uncle who came here the last June because his son was dying, 
and died here in Miami. For the first time he came to visit his 
son, and when he decided to return to Cuba, because he had a 
lot of family there, wife and children, he has no job any more. 
I mean, he is not working now because of it, because he is--his 
nephew is a betrayer is the reason he is not working now in 
Cuba.
    The Chairman. So they are punishing him for what you have 
done. Is that----
    Dr. Cordova. Pardon? Sorry?
    The Chairman. They are punishing him----
    Dr. Cordova. Yes.
    The Chairman [continuing]. For what you have done.
    Dr. Cordova. Because of me.
    The Chairman. Let me ask parenthetically, what is your 
specialty? What kind of medical doctor are you, sir?
    Dr. Cordova. General practitioner.
    The Chairman. General practitioner.
    Dr. Pena. General dentist.
    The Chairman. Dentist. Castro has offered, as I said in my 
statement, to send Cuban doctors to treat poor people in the 
United States. What do you think is behind Castro's proposal? 
Let her answer first, and you tell her what the question is.
    Dr. Cordova. Obviously, he is anxious to introduce 
Communist idea in this country, first of all. I think it would 
be interesting, you should allow them to come to see what 
happens, what could happen, because in spite of the--I mean, 
this detachment is going to be very, very well selected by the 
Cuban Government.
    I mean, most of them, the vast majority are going to belong 
to its--the Communist Party, of course, but the problem is, 
once people are out of Cuba and can see the rest of the world, 
and you can open your eyes, and you can prove that everything 
that you have learned for years is false, everybody is going to 
do something for staying here, or just for telling that Fidel 
Castro has been lying to us all the time, you know.
    Dr. Pena. She says she thinks it is a wonderful idea to see 
what would happen once they arrive here, and what his response 
would be.
    Dr. Cordova. I would not lose the chance.
    The Chairman. I want you to speculate just a little bit for 
me. Suppose, just suppose that Castro were to send 500 
physicians to the United States. How many of them do you think 
would go back to Cuba voluntarily?
    Dr. Pena. In the best case scenario, one would probably go 
back.
    The Chairman. Do you agree with that?
    Dr. Cordova. How many would return?
    The Chairman. Yes, voluntarily.
    Dr. Cordova. No one.
    The Chairman. Zero, zilch.
    Dr. Cordova. Yes, sure.
    The Chairman. Besides kidnaping, what other steps--and I 
know the answer to this question, but I want you to give your 
opinion by giving your answer. Besides the kidnaping that goes 
on and the other awful things that have happened since this man 
took over Cuba, what other steps does Castro take to coerce 
people to come back to Cuba?
    Let me elaborate just a little bit. Does Castro send 
members of his intelligence service, or so-called rapid 
response brigades to get them to come back, or persuade them to 
come back?
    Dr. Cordova. First of all he has formed, as I told before, 
the rapid response brigades that are all the time following all 
your steps, all what you do. Everything what you do has been--I 
mean, he has a very tight surveillance over the rest of the 
people who is in the brigade but he has a very powerful weapon 
in his hand. He has in jail in the meantime the family.
    I mean, in the big jail, in Cuba, he has their family, and 
you know, if you defect, not only you are going to be--I mean, 
are going to suffer the consequences of your acts, but your 
family mainly is going to suffer. No more job, no more money, 
no more anything, discrimination--I mean, more discrimination, 
OK. I think it is the best weapon he has to make everybody 
return to Cuba.
    The Chairman. Very well.
    Dr. Cordova. The family.
    Dr. Pena. One of the other things is to do just what he did 
to them, which is to put them in jail for a month.
    Dr. Cordova. It is an example for the rest of the people 
who are working in Africa, but obviously it has not punished 
them, because they are now some of them in Zambia, for example.
    The Chairman. Did you volunteer for this work in Zimbabwe? 
You volunteered for that?
    Dr. Cordova. Yes. Yes, because it is the only chance that 
Cubans can get abroad. I mean, can know something different 
from the reality of Cuba. It is the only chance. Cubans are not 
allowed to go to any other country, mainly doctors and teachers 
are not allowed to travel. Even having a visa, having all the 
costs covered by someone from abroad, the money, everything, is 
not allowed, and it is a good chance to travel.
    The Chairman. Did you pay your own expenses to go to 
Zimbabwe, or did the Cuban Government pay your expenses?
    Dr. Cordova. The Cuban Government paid.
    The Chairman. Is that true of you, Dr. Pena?
    Dr. Pena. She did not pay for it, but she is not sure if it 
was the Cuban Government that paid for the expenses or the 
Zimbabwean Government.
    The Chairman. I am almost afraid to ask this question, but 
when you volunteered to go, did you ponder the possibility that 
you might end up in the United States of America and get 
citizenship here?
    Dr. Pena. She said that she had made up her mind once she 
left Cuba, wherever that is that she would have to find another 
destination, that she did not want to return. She did not know 
where she was going to end up, but did not want to return.
    The Chairman. Is that approximately your----
    Dr. Cordova. The same. It is the same.
    The Chairman. They keep telling me that the vote has 
started, but I am going to stay here a little bit longer.
    Now, an audio tape is being made of all this, as I 
instructed.
    Yesterday, we saw again the tragic results of the Castro 
regime's brutality, when those 10 Cubans who were desperate for 
freedom fled in that small, ill-equipped crop-dusting plane. 
Now, that plane crashed, and while most of the people aboard 
survived, it is uncertain whether they will be given refuge in 
the United States or whether they will be sent back to Cuba.
    Now, the Castro regime is claiming that this was a 
hijacking, a claim belied by the fact that the pilot stopped 
off to pick up his own wife, his children, and some friends 
before heading out over the open sea. Even so, the Clinton-Gore 
administration is likely to return these 10 Cubans to Havana, 
as they have done time and time again before, because they were 
not lucky enough to get their dry feet on U.S. soil.
    Now, as Cuban citizens, and feeling the way you do about 
the tyranny of the Castro regime, what do you believe will 
happen to these 10 individuals in that plane crash if they are 
forcibly returned to Cuba? Do you understand my question?
    Dr. Cordova. Yes. Those people that were in the plane?
    The Chairman. Yes, sir.
    Dr. Cordova. Obviously they are going to be in jail, 
because they--I do not know really what their story consists 
of, but for the matter of getting a plane from Cuba to any 
other country, as well enough to express, or try to express 
indirectly their disagreement with the government, is well 
enough to be sent to jail.
    The Chairman. Would you like to comment on that?
    Dr. Pena. She says she agrees that undoubtedly they would 
be sent to prison, at the least.
    The Chairman. I have just been handed some great news. 
Where is the Congresslady? I do not want you to sit back there. 
I want you to come up here, please.
    Now, you know that all those lights mean there is a vote. 
Since this is informal, the other side of the Chamber will not 
let us have a hearing, so we are just having a public meeting, 
of which a record will be kept, whether they like it or not, so 
if you will identify yourself for the record and take over here 
while I go vote.
    Ms. Ros-Lehtinen. What a great honor. Thank you, Senator 
Helms. Congresswoman Ileane Ros-Lehtinen from Miami, Florida, 
and I am very proud that the doctors are now constituents of my 
congressional district in Miami--the 18th district of Florida. 
We welcome them to our country. We welcome them especially to 
our community, and that is the community of--Senator Helms, 
that is the community of free people.
    The Chairman. That is right. We want to keep you here, OK.
    Ms. Ros-Lehtinen. Thank you, Senator.
    The Chairman. Take over.
    Ms. Ros-Lehtinen. Thank you. I had had the opportunity of 
meeting with the doctors, and I know that their plight in 
Zimbabwe was harrowing. Then they had the detention followed by 
immigration limbo once they got to their temporary destination 
before the United States. I want to ask them if they believe 
that the ruler of Zimbabwe's friendship with Fidel Castro and 
their long years of cooperation was a factor in their detention 
for 32 days. Do you think that it was pressure from the Castro 
regime that had you in this situation for so long?
    Dr. Cordova. Obviously, he was behind the scenario, you 
know. He was behind everything. Castro commanded everything 
that happened to us, because he wanted to give an example to 
the rest of the people who was working there, you know, and 
obviously Mugabe did everything that Fidel Castro wanted.
    Dr. Pena. Also, it was openly said that Fidel Castro made a 
call to Mugabe and told him not to permit their exit from the 
country.
    Ms. Ros-Lehtinen. I think that that is very important, when 
you point out that there was an actual call from Fidel Castro 
to the Zimbabwe leader asking him to take certain action, and 
this was told to you how? How do you know about that?
    Dr. Cordova. The director of the UNHCR office in Zimbabwe, 
our lawyer, who is a representative of UNHCR that worked for 
Zimbabwe, Zambia, and Malawi, the director of the region, Mr. 
Byeuli is the director for these three countries, and everybody 
who knew it informed us about it, and it was the main reason 
that we were in jail for more than a month, because in June 9 
we had the political refugee status condition, because the 
Government of the United States gave us this kind of status.
    Ms. Ros-Lehtinen. What do you think that Fidel Castro saw 
in you? What did you represent to his regime that he would take 
such a personal interest and involvement to make sure that you 
would not be granted political asylum? What was it that you 
represented that he wanted to make sure the world did not see?
    Dr. Pena. First of all, he sent them to Africa as health 
diplomats, quote-unquote. Our desertion set an example to the 
other physicians that were on the mission as to what could 
happen, or could be done. That's obviously not convenient for 
him, nor would he want--and all the things we went through were 
trying to set a direct example to the other physicians of what 
could happen to them if they were to----
    Ms. Ros-Lehtinen. So he saw you as a threat to what he was 
trying to do, in sending you over.
    Dr. Pena. A great threat.
    Ms. Ros-Lehtinen. And you are obviously children of the 
``revolution.'' You grew up only knowing the Castro regime, is 
that correct?
    Dr. Cordova. Yes.
    Ms. Ros-Lehtinen. That is the only life that you have 
known, and you knew that there was another life out there 
available for you.
    You know that here in the United States we have a lot of 
pressure from mostly business community leaders to try to lift 
the embargo on Cuba. I noticed in your testimony something very 
interesting, as professionals in the medical field you were 
saying that foreign tourists and Cuban revolutionary leaders 
enjoy the best medical attention in luxurious and well-equipped 
hospitals, without feeling the lack of resources and the human 
cost to the Cuban population, who, in turn, are subjected to 
the worst restrictions.
    While in the dollar shops you can find the existence of 
many resources, they are not at the reach of the average Cuban, 
made in Cuba, but property only of the Cuban Government. As you 
said, that is so true about the medical attention. Many people 
do not understand that there is a medical apartheid operating 
in Cuba, where you have the best facilities and ample medicine 
and all of the supplies that you need, and that is available 
for the Communist elite and for the tourists, and for the 
normal, average citizen of Cuba you cannot even be operated on 
in a hospital without bringing bed sheets and without bringing 
many of your own supplies.
    A mother cannot give an aspirin to her child, but certainly 
a tourist can have the best plastic surgery available in the 
hemisphere, and some people believe here in the U.S. Congress 
that the Cuban people would get more food and medicine if some 
restrictions would be lifted, in spite of the fact that there 
are, in essence, few restrictions on those items.
    Do you believe that a movement to lift the restrictions 
would help Castro by giving him a political victory, or what is 
your estimation on the issue of food and medicine and the 
embargo in general?
    Dr. Pena. The Cuban people would have more medicine and 
food once the system within Cuba has changed. The U.S. embargo 
against Cuba in no way affects the Cuban people. With or 
without an embargo against Cuba, the Cuban people will continue 
to suffer the same way, because Fidel Castro and his system is 
the one that has an embargo against the Cuban people.
    Dr. Cordova. It is very important to say that in Cuba 
exists a double health system, one destined to tourism and the 
leaders of the revolution and their families and friends and so 
on, and the other, the worst, to the Cuban people.
    For example, where the confusion take place, for example, 
Fidel Castro sends a distorted image to the rest of the world, 
because people--I mean, people from United States or people 
from any other country that go to Cuba, he is going to--I mean, 
they are going to visit the Manos e Majedas Hospital, and to 
tell you the truth, it is the hospital for the population 
attention, but for a few amount of population attention, of 
population who lives nearby the hospital, he has equipped the 
Manos e Majeda, he has organized very well a hospital just to 
show this kind of--I mean, this hospital to the rest of the 
world, but I would invite him--I invite him to show you the 
Castilla Juasia Hospital, the Joachim a Bara Hospital, or any 
other provincial hospital that represents the reality of the 
Cuban----
    Ms. Ros-Lehtinen. What would someone find if they were to 
tour those hospitals?
    Dr. Cordova. Where?
    Ms. Ros-Lehtinen. What would----
    Dr. Cordova. In the worst hospital, well, the worst 
conditions. First of all, we have no access to medications 
needed in some cases to treat a patient. I mean, antibiotics, 
pain killers, et cetera. Their laboratory means are obsolete. 
We have no access, only in such cases specially approved by the 
government, or by the highest sphere of the health minister. By 
no means we are going to find a way of treating the patient in 
those hospitals that we are going to find in Manos e Majeda, or 
much better in other hospitals belonging to the elite of the 
government.
    There is a great, great difference between those hospitals 
destined for tourism--I mean, if we are going to talk about 
tourism, it is better, much--it is the best. Everything is 
there, even medication. I mean, drugs is there. You are going 
to find--I mean, you have the need of using any specific kind 
of antibiotics, you are going to find in any drug store, but in 
dollars, only for tourism, or only for the elite. Even having 
the money you cannot----
    Ms. Ros-Lehtinen. The tourists who go there, and if they 
happen to fall ill, they would not have any difficulty in 
finding medicine, or finding a hospital, or a clinic?
    Dr. Cordova. No. No.
    Ms. Ros-Lehtinen. So it's not from the lack of supplies, 
it's who gets those supplies, and the Cuban people are not 
getting those supplies.
    Dr. Cordova. Even those drugs made in Cuba, most of them 
are made in Cuba, they have the access to these kinds of drugs, 
but the Cuban people have no access to these kinds of drugs.
    Ms. Ros-Lehtinen. You know, what is interesting is that a 
lot of people talk about the supposed embargo, about food and 
medicine, and there are actually--there is no restriction when 
you talk about medicine. You can donate all the medicine that 
you would like to Cuba, and also you could sell all kinds of 
medical supplies. You need a license.
    What would change in Cuba's health care system if those 
restrictions, whatever they may be, are supposedly lifted, in 
fact you could do that right now, and what happens is that 
every other country in the world can supply Cuba, including the 
United States, with all of those medicines, but it would not 
get to that mother with the sick child because it is the 
delivery system that is always going to the tourist.
    Do you see any reforms taking place in Cuba on this front? 
Do you see any changes at all that more people are getting 
access, or do you see the same restrictions that have always 
been in place with Fidel Castro? In other words, some people 
think that Fidel Castro will change, and that tomorrow he will 
allow certain freedoms, whether it is freedom of expression or 
perhaps freedom of the delivery of health care. Do you see any 
of those reforms taking place in Castro's Cuba today?
    Dr. Pena. A reform to help the Cuban people or to make the 
situation better has not and will never come from the Castro 
regime.
    Dr. Cordova. The Cuban people need more than food and 
medicine. The Cuban people do really need freedom. We have 
shown that we can resist any kind of restriction, and history 
has shown--for example, in 1994, 1993-1994, the Cuban 
Government lost its connection with the USSR, I mean with the 
socialists, and in that moment nobody had invested in Cuba. 
Then, in spite of the Cuban people had nothing to eat--had 
nothing to eat--the people stay happy--I mean, many, many 
persons began to show their anxiety, to ask for freedom.
    We can remember now the events of August 5, no? Then I 
think, given what happened later, the foreign enterprises began 
to invest in Cuba. Then Fidel took again the power, because 
economically he grew up a leader, then he is squeezing out 
again the people. We cannot do anything because of him.
    I think reducing our role, the external supplies to Cuba, 
we are not going to squeeze the people, to harm the people, 
because we accustomed to do it for more than 40 years, but the 
Cuban Government, Fidel Castro is going to sever a lot, and he 
has to do a real pressure, because the political pressure has 
to be previous than the economic pressures. He does not play 
any role in Cuba. He has to leave the power, and to leave the 
Cuban people, to leave in command, you know.
    I think I don't--I disagree at all with lifting the 
embargo, because it does not affect the Cuban people. It does 
affect the Cuban tyranny imposed by Fidel Castro.
    Ms. Ros-Lehtinen. Well, I do not think it is a coincidence 
that he is one of the wealthiest men in the world----
    Dr. Cordova. Yes.
    Ms. Ros-Lehtinen [continuing]. And that Cuba is one of the 
poorest countries, certainly in our hemisphere.
    I want to ask you to elaborate a little on the mission of 
the Cuban doctors. Castro talks a lot about his humanitarian 
efforts when he sends doctors abroad, and I want to ask some 
questions about it. First, why do Cuban doctors volunteer for 
these missions? Are they perceived as humanitarian by the 
doctors themselves, and are the doctors paid by the government? 
Also, are some of the doctors trying to volunteer in order to 
get out of Cuba?
    Dr. Cordova. At the very beginning, Castro was exporting 
doctors to receive money because of it. It is the case, for 
example, of South Africa. It is the case of Brazil, and a lot 
of small missions.
    Ms. Ros-Lehtinen. You say that he sends doctors----
    Dr. Cordova. To where they are, and to receive money.
    Ms. Ros-Lehtinen. And the Castro regime is paid----
    Dr. Cordova. Yes.
    Ms. Ros-Lehtinen [continuing]. By the governments----
    Dr. Cordova. By those governments.
    Ms. Ros-Lehtinen [continuing]. To which he sends doctors?
    Dr. Cordova. But he--sorry. As time went by, occurred the 
problem of Mitch Hurricane that affected Central America--
mainly Central America, and he sent some American brigades to 
work for free. The impact on this area in the international 
opinion was so big that he preferred then not to send any more 
doctors for money, at least openly, but for free to send the 
image, in spite of receiving money, and then he did not have 
any other chance----
    Ms. Ros-Lehtinen. So after Hurricane Mitch, then he changed 
it.
    Dr. Cordova. Of course. Of course.
    Ms. Ros-Lehtinen. And he was just sending doctors.
    Dr. Cordova. Of course. Most of the mission--I mean out of 
Cuba are for free, mainly in Central America, because the 
effect is greater for him, selling his image of a good man 
helping the rest of the world, than taking some--I mean, 
getting some millions of dollars.
    Ms. Ros-Lehtinen. Are those doctors people who would have a 
lot of work to do in Cuba if they stayed there? They could be 
helping people in Cuba.
    Dr. Cordova. Of course.
    Ms. Ros-Lehtinen. But instead Castro is exporting them as 
part of his political machine.
    Dr. Cordova. It is interesting, because those brigades are 
accompanied by a lot of medications, coming from abroad, 
supposed to be helping, to be in Cuba for helping the Cuban 
people's needs that are a lot of needs that we have there, and 
he sends with those brigades later, many patients--a big--I 
mean, tons of drugs, medical equipment, and doctors for free to 
other countries.
    It is very interesting that now in Cuba we are suffering a 
lot. I mean, mainly the medical students who in some years are 
going to treat our patients are suffering a lot of restrictions 
to study, and he has invented a special program to train, to 
make training for those people coming from abroad, more than 
10,000 for free, and in the very best conditions. Everything is 
going to them, the best books, food, everything--everything, 
everything, and why he does not do the same with our people, 
with our doctors, with the persons who are going to be in 
charge of our----
    Ms. Ros-Lehtinen. So he extends them privileges and special 
categories of attention that he does not give to the Cuban 
doctors in training?
    Noris, did you want to say something?
    Dr. Pena. No, ma'am.
    Dr. Cordova. It happened in the American Medical School. It 
is in a special place apart from the Havana City. I mean, not 
in the reach of everyone to see what is going on there, but 
personally I had a lot of new students in my doctor's office 
who were being trained in there, and they told me of the 
conditions.
    Ms. Ros-Lehtinen. And the doctors who are sent abroad on 
these missions, are some of them hoping that they would have 
the opportunity to defect, and is that one of the problems that 
Castro had with your defection in Zimbabwe, that it would then 
start a problem for other doctors thinking that--a problem for 
Castro with other doctors?
    We have had cases in our congressional office of other 
Cuban doctors in different areas of Africa who are also seeking 
political asylum and have had difficulties, and I think that--
do you believe that your case has spurred them on to perhaps 
think that they could also apply for political asylum, and then 
Castro clamped down on them because of your case? What effect 
do you think your case will have on other medical doctors?
    Dr. Pena. We had a lot of motives for doing what we did. 
One of them is for the professional, the health care workers, 
and the Cuban people in general to be able to open their eyes, 
not necessarily in the sense to just run away from the system, 
but to fight for what it is that we want in Cuba.
    Dr. Cordova. I think it has been a stimulus to the rest of 
the doctors, because we have demonstrated that we can reach 
freedom, that we can express openly what we think, not looking 
back. I mean, not looking back at the consequences that we can 
suffer for.
    If we died making the attempt, it would be worth--you know, 
it would be worth it, because it is possible. Someone has to 
tell to Fidel Castro that he has to leave, and it is the chance 
for us now.
    Ms. Ros-Lehtinen. Now, I notice in your testimony you had 
said that the head of the Cuban medical mission in Zimbabwe is 
the head of the Cuban rapid response brigade. Does the Castro 
regime utilize these medical missions to also infiltrate those 
countries with Castro intelligence officers? Does he send 
officials as part of the delegation to spy on doctors such as 
yourselves?
    Dr. Pena. Fidel Castro mistrusts the Cuban people to the 
extent that were medical workers, or artists, or any type of 
Cuban that were to leave the island, he would make sure that 
there is someone there to control them and to keep watch over 
them.
    Dr. Cordova. He utilizes the rapid response brigades to 
maintain control over the doctors. He does not trust anybody.
    Ms. Ros-Lehtinen. Now, as I said, you are children of the 
revolution, grew up only knowing Fidel Castro, and I wanted you 
to elaborate on how people in your generation view the Castro 
regime. Could you discuss how the views and opinions of your 
colleagues, whether they are in the medical profession or 
people of any profession, what do they say about the Castro 
regime? What would you say the views are of the common Cuban 
person on the street?
    Dr. Pena. The young Cubans have been deceived by the 
regime, and they are not in agreement with the regime at all. 
There is a fear and a lack of decision. There is an indecision 
as to what to do. That is one of the reasons why we need to 
speak out, why we need to let people around the world know what 
is happening in Cuba.
    Dr. Cordova [through translator]. There is a consensus 
among my colleagues and among Cubans in general that Fidel is 
not what the country needs or wants. In one form or another we 
have been manipulated, and at least our generation and the ones 
to come after us will do something quickly to try to change the 
situation.
    Ms. Ros-Lehtinen. And what do you say to those individuals 
who wish to normalize relations with Castro? Your English is 
good, Leonel.
    Dr. Cordova. OK.
    Ms. Ros-Lehtinen. I am not going to let you say it in 
Spanish.
    Dr. Cordova. I would like to say to them that normalizing 
relationships with Castro, they are doing it very, very--I 
mean, they were harming very hard the Cuban people, because we 
had the expectancies that Fidel Castro and his regime will not 
be there for not any longer, I mean, not for a long time. Then 
it would help them. If we provide them with everything to 
remain in power, the Cuban people's misery is going to be 
prolonged for the rest of their lives, or for another 40 years, 
and we cannot conceive something like this.
    Dr. Pena. If the situation is bad now, she thinks it is 
going to get worse if there is a normalization of relations, 
because Fidel has made it clear that he is not going to change 
and that the system is not going to change.
    Dr. Cordova. And I would like to say that lifting the 
embargo maybe the American people are going to gain a lot of 
things, I mean, in relation to businesses, travels, et cetera, 
but in regard to the Cuban people, it is going to be a disaster 
not only for those who are on the island, but those who are 
here in Miami, because Fidel Castro will not need any more of 
us. You know, he is going to take the chance of selecting who 
can go to the island or who cannot. He does it now, but no one, 
nobody can go in that moment to Cuba.
    I mean, at least Cuban-American people will not be able to 
go to Cuba any more, and everybody have to think about this 
important point. Castro is going to select who is going to 
invest or not in Cuba, and in which area. Then for the American 
people, for the rest of the world, maybe it could be wonderful, 
but for the Cuban people, if we would really like the freedom 
of our people, please, do not do it.
    Ms. Ros-Lehtinen. Let me ask you about these Cuban 
missions. Did Fidel Castro or any of his henchmen ever ask 
these missions to go to the Cuban jails to visit the Cuban 
political prisoners? Is there any health care that is going to 
them at all, and what is the status of the health care 
situation for the political prisoners currently in Castro's 
jails? Were you ever asked to go there to provide dentistry, or 
to provide any health care to the political prisoners?
    Dr. Pena. First of all, it is prohibited in Cuba to say 
that there are political prisoners. They are all considered 
common prisoners, and so it is not permitted to go and take 
care of anyone in that situation, much less in the prison.
    Dr. Cordova. It is really difficult to know who is in jail 
for political reasons, because for example, when we arrived in 
Miami, for the first time we knew something about, as we said, 
the doctor who is in jail because he wanted to express his own 
opinion, but nobody in Cuba knows anything.
    Ms. Ros-Lehtinen. So Dr. Biscet, whom we have discussed at 
great length in the U.S. Congress, is not a person whose fight 
for freedom or democracy and human rights is known to Cubans.
    Dr. Cordova. He is not known in Cuba. Nobody knows anything 
about it, about him.
    Ms. Ros-Lehtinen. And he's still in jail, after so many 
months of false detention.
    Dr. Cordova. In a critical condition in relation to health. 
His health is not so good, as far as I have read.
    Ms. Ros-Lehtinen. He has been tortured, and beaten, and 
subjected to very harsh conditions, and some reports indicate 
he is barely alive, and in solitary confinement, and it seems 
like a health professional should do something about that if he 
would be allowed.
    Well, unfortunately I am needed over there in the House, so 
I will recess this public meeting, but thank you so much, 
doctors. I had a few other questions. We will just have to ask 
them over a cafe con leche at La Carreta.
    Thank you very much.
    [Whereupon, the public meeting recessed.]


</pre></body></html>
